 

 

IN THE SUPREME COURT OF THE UNITED STATES

VICTOR AVALOS-RIVERA,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.

PETITION FOR A WRIT OF CERTIORARI
Motion for Leave to Proceed In Forma Pauperis

Pursuant to 18 U.S.C. ยง 3006A and Supreme Court Rule 39, the Petitioner,
Victor Avalos-Rivera, asks for leave to file a Petition for Writ of Certiorari to the U.S.
Court of Appeals for the Ninth Circuit without pre-payment of fees or costs and to
proceed in forma pauperis. The Petitioner was represented by counsel appointed

pursuant to 18 U.S.C. ยง 3006A in the district court and on appeal to the Court of

Appeals for the Ninth Circuit.

Respectfully submitted,

November 9, 2020 anh! LOPEZ

Federal Defenders of San Diego, Inc.
225 Broadway, Suite 900

San Diego, California 92101
Telephone: (619) 234-8467
Attorneys for Petitioner
